                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Inspector General
                                                             Washington, D.C. 20230




April 25, 20 12

The Honorable Darrell lssa 

Chairman 

Committee on Oversight and Government Reform 

U.S. House of Representatives 

Washington, DC 20515-6143 


Dear Mr. Chairman:

In response to your request of April 5, 2012, we are providing current information on our
office's open and unimplemented recommendations, including:

   • 	 The number of open and unimplemented recommendations (see enclosure I);
   • 	 The issue date and estimated cost savings of those recommendations with associated
       estimated cost savings (see enclosure 2);
   • 	 Our three most important open and unimplemented recommendations (including, for
       each, its status, any associated cost savings, and bureau plans for 20 12 implementation;
       see enclosure 3); and
   • 	 The number of recommendations that our office has deemed accepted and implemented
       during the time period from April 30, 20 I I, to April 20, 2012 (see enclosure I).

As requested, we also identified what we consider to be the three most important
unimplemented recommendations we have made to the Department or its bureaus (for further
details, see enclosure 3):

   I. 	 Recommendations related to the National Oceanic and Atmospheric Administration's
        (NOAA's) National Marine Fisheries Service, including those we reported in February
        2012 and January 20 I0 (the February 2012 recommendations entail cost savings that we
        have estimated in enclosure 2);
   2. 	 Recommendations related to NOAA's environmental satellite programs, including those
        we reported in September 20 I I and November 2007; and
   3. 	 Recommendations related to the Department's IT security, including those we reported
        in October 20 I I and November 20 I I.
If you have any questions or require additional information, you or your staff may contact me at
(202) 482-4661 or Ann Eilers, Principal Assistant Inspector General for Audit and Evaluation, at
(202) 482-2754.

Sincerely,


r(~ -3.. ______.­
Todd J. Zinser

Enclosures

cc:    The Honorable Elijah E. Cummings, Ranking Minority Member
Enclosure I: OIG's Open and Unimplemented Recommendations Since 2007

                                      Recommend ation s    Recom m endations     Recommendations
  Calen dar       Recomme nda tions
                                           Still                 Still             Implemented
   Year                Made
                                           Open             Unimple mented      Since April 29, 20 II
     2007                187                   0                    3                     0
     2008                143                   0                    0                      I
     2009                100                   0                    2                    30
     2010                 93                   0                   43                    24
     2011                 66                   0                   61                     5
     2012'                53                  25                   53                     0
    Total               642                   25                  162                    60
• As of Apri120, 2012

We compiled this table by reviewing all performance audit, evaluation, and inspection reports
we issued during the period of January I, 2007, through April 20, 20 12. We have not included
classified or sensitive nonpublic recommendations, recommendations in financial statement
audits, or those addressed to specific nonfederal entities in connection with audits of financial
assistance awards.

After OIG issues a final report, a bureau has up to 60 days to submit a corrective action plan
for OIG's approval. The 25 "open" recommendations from 2012 reports are due to

    • 	 4 reports with 16 recommendations for which the bureaus have not yet submitted
        corrective action plans as of April 20, 20 12, and
    • 	 I report with 9 recommendations, whose corrective action plan is still being reviewed
        byOIG.

"Unimplemented" recommendations have approved action plans, but the bureau has not yet
completed its implementation of the recommendations.
    Enclosure 2: Recommendations That Have Associated Estimated Cost Savings
    Two recommendations from More Aaion Needed to Improve Controls in Asset Forfeiture Fund
    (OIG-12-0 19-1), issued on February 8, 2012, have estimated cost savings associated with them
    (see table, below):

                                             .                                        Est~mated Cost
                                Recommen d ation                                              ·
                                                                                          5 avmgs
       We recommend that the Under Secretary of Commerce for Oceans
       and Atmosphere require that NOAA's Office of Law Enforcement
                                                                                          $871,000 

       (OLE), the Enforcement Section, and NOAA Finance implement a
                                                                                       funds to be put 

       process to ensure that deposit account' cases are periodically
                                                                                        to better use 

       reviewed and that legally resolved cases are transferred from the
       deposit account or returned to a respondent in a timely manner.
       We recommend that the Under Secretary for Oceans and
       Atmosphere require that Enforcement Section and NOAA Finance                     $3.9 million
       develop policies and procedures to consistently pursue collection of          unsupported costs
       fines and penalties in a manner that treats all respondents uniformly,          and write-offs
       and in compliance with the Debt Collection Improvement Act of 1996.




1
  The "deposit account" holds proceeds that are pending legal determination from the sale of property seized by
OLE agents. Once a case has a determination, funds should be moved from the deposit account in accordance with
the legal disposition-either by returning money to the respondent or transferring money to one of NOAA's
marine resource funds.
Enclosure 3: OIG's Top Three Open and Unimplemented Recommendations

Recommendations related to NOAA National Marine Fisheries Service, including
those reported in More Action Needed to Improve Controls in Asset Forfeiture Fund
(OIG-12-0 19-1), February 8, 20 12, and Review of NOAA Fisheries Enforcement
Programs and Operations (OIG-19887), January 21, 20 I 0

The asset forfeiture fund (AFF), the focus of our February 20 12 report, contains proceeds from
marine resource violations that are expendable under the guidelines of the Magnuson-Stevens
Fishery Conservation and Management Act, section 311 (e)( I). An independent audit firm
determined the AFF to have a $13.6 million asset balance ($7.5 million in unrestricted cash) as
of March 3 I, 20 I I. In previous OIG reports from January and July 20 I0, we addressed concerns
that revealed several weaknesses in NOAA's management of and internal controls over the
AFF. This year's review examined whether NOAA properly defined AFF assets and their
allowable uses-and developed controls over collections and disbursements. The review also
examined whether the audit plan of the AFF financial statements, compiled by an independent
auditor, could provide reliance on the AFF cash balances as of March 3 I, 20 I I.

We found that NOAA (I) lacks appropriate controls to assure the receipt and accurate
recording of proceeds and (2) has not accurately recorded or adequately pursued all fines and
penalties. We also noted that the AFF does not contain all NOAA collections for marine
resource violations. In addition, we described NOAA's accounting for the use of fines and
penalties from Northeast Multispecies Fishery Management Plan violations, as well as provided
clarification of AFF data inflow and outflow.

Our recommendations pertained to NOAA's Office of Law Enforcement (OLE), NOAA's
Office of General Counsel Enforcement Section (GCES), and NOAA Finance. We
recommended that OLE train agents and enforcement technicians on AFF collection
procedures and policies; implement procedures for enforcement action reports; and evaluate
the Law Enforcement Accessible Database System internal control and access issues. Further,
we recommended that OLE and GCES develop policies and procedures to address payment
issues. GCES should also coordinate handling of its lockbox submissions; develop policies and
procedures for Commerce Business System debt recording (and independent monitoring for
amounts not yet recorded); and standardize case monitoring. Finally, we recommended that
OLE, GCES, and NOAA Finance implement a process to ensure periodic review timely transfer
of cases-and GCES and NOAA Finance develop policies and procedures to pursue collection
in a uniform manner in compliance with the Debt Collection Improvement Act of 1996.

   Status of recommendations: Our recommendations are unimplemented at this recent
   stage.

   Estimated cost savings: Implementation of two of these recommendations would entail
   $871,000 in funds to be put to better use and $3.9 million in questioned costs (see
   enclosure 2 for further details).
   Plans to implement recommendations in near future: We received NOAA's action
   plan addressing these recommendations but need further discussion with NOAA before
   accepting the final plan.

Our January 20 I0 report responded to NOAA's June 2009 request for OIG review of the
policies and practices of the Office for Law Enforcement (OLE) within the National Marine
Fisheries Service (NMFS), along with the NOAA Office of General Counsel for Enforcement
and Litigation (GCEL; later renamed Office of General Counsel Enforcement Section, or
GCES)-prompted in part by concerns raised by members of Congress and elected state
officials about NOAA's Northeast Region. We focused on (I) how OLE and GCES conduct
enforcement operations; (2) the OLE and GCES processes for establishing enforcement and
penalty priorities; and (3) NOAA's enforcement resources, including management and use of
funds obtained through imposed penalties.

The significant unimplemented recommendation from the January 20 I0 report stated that
NOAA should determine whether it is maintaining an appropriate balance and alignment of
uniformed enforcement officers and inspectors and criminal investigators.

   Status of recommendation: This recommendation remains unimplemented.

   Estimated cost savings: This recommendation has potential for cost savings, depending
   on the particular changes that the new workforce plan suggests. At this stage, we cannot
   precisely estimate specific cost savings associated with these improvements. However,
   NOAA's draft workforce analysis reports that NOAA paid $2.8 million in law enforcement
   availability pay for noncriminal investigative work.

   Plans to implement recommendation in near future: NOAA has only recently
   prepared a draft workforce analysis in response to our recommendation; NOAA has
   communicated that it expects to finalize the document by July 20 12-more than 2 years
   subsequent to our recommendation.
Recommendations related to NOAA environmental satellite programs, including
those reported in Joint Polar Satellite System: Challenges Must Be Met to Minimize
Gaps in Polar Environmental Satellite Data (OIG-1 1-034-A), September 30, 20 I I, and
Successful Oversight of GOES-R Requires Adherence to Accepted Satellite Acquisition
Practices (OSE-18291 ), November 20, 2007

Our September 20 I I audit reviewed the Joint Polar Satellite System OPSS) program. In
February 20 I0, the White House's Office of Science and Technology Policy decided to have
NOAA partner with NASA to establish JPSS-which, at that time, planned to launch two
satellites at an estimated cost of $11.9 billion to collect data for short- and long-term weather
and climate forecasting through 2026. On October 28, 20 I I, NASA launched the Suomi
National Polar-orbiting Partnership (NPP) satellite that will now be used operationally to
maintain continuity of data from the afternoon orbit.

Our review found, among other things, that NOAA's ground system for NPP is not as robust
as a typical operational system. Until NOAA establishes backup ground system capabilities,
satellite control is vulnerable to severe events (e.g., natural disasters, large-scale
telecommunications outages, or equipment failures) that could disrupt the mission management
center's ability to control the satellite. In addition, NPP's ground station has the system's only
science data downlink (i.e., the only means to transmit a signal from the satellite to the ground
station).

One significant recommendation remains unimplemented: to mitigate the risks of using NPP
data operationally, determine the feasibility of establishing an alternate mission management
center and an additional science data downlink for NPP as soon as possible.

    Status of recommendation: According to NOAA officials, the bureau has commissioned
   studies to develop an alternate mission management center and aims to have it ready well in
   advance of the first JPSS satellite OPSS-1) launch.

   Estimated cost savings: While we cannot yet project specific cost savings, NOAA's
   implementation of our recommendation should help prevent loss of life and property-by
   ensuring the availability of critical data needed to predict severe weather events is available.

   Plans to implement recommendation in near future: NOAA expects the feasibility
   study to be completed by July 31, 20 12.

Our November 2007 review focused on the Geostationary Operational Environmental Satellite
(GOES-R) program. In 2005, the Department and NOAA assumed oversight and management
responsibility for the entire GOES-R program, now projected to cost $10.9 billion for four
satellites that will enable uninterrupted short-range severe weather warning and "now-casting"
through 2036. Since then, NOAA-rather than NASA- has led GOES-R's program
management and acquisition, thus leaving the Department with direct oversight authority for
both the ground and space segments. These new roles have added risk to an already highly
complex undertaking. Our review found that the Department lacked a workable oversight
structure-not just for GOES-R but for all major acquisitions.
    The following recommendation remains unimplemented: complete and implement the
    Department's major system acquisition policy and, for satellite programs, ensure the policy
    incorporates the key decision points in NASA Procedural Requirements (N PR) 7120.5D 2 and
    requires comprehensive independent reviews at all key decision points.

       Status of recommendation: The Department agreed to develop a major system
       acquisition policy by the third quarter of FY 2008. It did not meet the deadline.

       In June 20 I0, the Department created a new process to manage acquisitions and reduce risk
       called the "Commerce Acquisition Framework." In February 20 12, the Department
       identified steps regarding changes to acquisition policy. It also plans to pilot major
       investment projects-including those concerning NOAA satellites, 2020 Census, and cyber
       security-through this process and release a framework policy in June 2012.

       Estimated cost savings: With an estimated $23 billion for the Department to spend on
       GOES-Rand the Joint Polar Satellite System-two critical environmental satellite systems­
       over their life cycle, plus $2.5 billion annually in major IT investments alone, the
       Department must have an effective oversight program in place. The benefits gained by
       implementing our recommendation may result in cost savings; however, we cannot yet
       project a specific amount.

       Plans to implement recommendation in near future: As noted above, the 

       Department plans to update its policy in June 20 12. 





2
    NPR 7120.50 is a NASA policy that NOAA has adopted for its satellite acquisition activities.
Recommendations related to the Department's IT security, including those
reported in Improvements Are Needed for Effective Web Security Management (OIG­
12-002-A), October 21, 20 I I, and FY 20 I I Federal Information Security Management
Audit: More Work Needed to Strengthen IT Security Department-Wide (OIG-12-007­
A), November I 0, 20 I I

In support of our fiscal year (FY) 20 I I Federal Information Security Management Act (FISMA)
audit, our office issued two reports. Each identified specific issues with the Department's IT
security program and included recommendations for improving the Department's overall IT
security posture.

For our October 20 I I audit, our office assessed the effectiveness of security measures
implemented on a selected subset of 15 of the Department's public-facing websites. Our
assessment identified significant vulnerabilities resulting from inadequate software development
practices, improper software configuration, and failure to install system updates in a timely
manner. We found critical vulnerabilities in 80 percent of web applications we reviewed. The
majority of web applications have well-known website vulnerabilities, misconfigured back-end
databases, and outdated software that support them. Combined, these security weaknesses put
both web applications and users' computers at greater risk of compromise, resulting in
disruption of services or unauthorized disclosure of sensitive information.

Two of our recommendations remain unimplemented-that the Department's chief
information officer (a) work with operating unit senior management to ensure that bureaus
expand the Department's vulnerability scanning to include application-level assessments and
(b) utilize security best practices (e.g., users' input validation) for publicly accessible web
applications to ensure that only legitimate information is accepted.

    Status of recommendations: The above two (of the report's three) recommendations
    have not been completely implemented.

    Estimated cost savings: Implementation of our recommendations will improve the
    Department's processes for securing its web applications. Avoiding hardware and software
    compromise, as well as service disruption, will certainly lead to more efficient operations.
    However, we cannot yet estimate particular cost savings associated with these
    improvements.

    Plans to implement recommendations in near future: The Department plans to
   complete implementation of our recommendations by the end of FY 20 12.

Our November 20 I I audit assessed the security of I0 information systems selected from three
Departmental bureaus: five from NOAA, three from the U.S. Patent and Trademark Office, and
two from the Census Bureau. The bureaus categorized these systems as high- or moderate­
impact, based on how severely a security breach would affect organizational operations, assets,
or individuals. We identified deficiencies in fundamental aspects of security planning and
significant security control weaknesses. These include continued failure to implement key
controls governing access, securely configure components, patch vulnerable software, and audit
and monitor system events. Flaws remain in the Department's process for reporting and
tracking the remediation of IT security weaknesses. Overall, the Department needs to manage
information security with greater rigor and consistency.

One of our recommendations for improving the Department's information security program
and practices remains unimplemented: we recommended that the Department develop a
security planning checklist, or other planning tool, to help system owners and authorizing
officials complete and maintain comprehensive security plans.

   Status of Recommendation: The above recommendation (one of the report's three) has
   not been completely implemented.

   Estimated Cost Savings: Implementation of our recommendation will improve the
   Department's processes for identifying and remediating security vulnerabilities-and
   improve its process for authorizing systems to operate. These improvements may result in
   cost savings; however, we cannot yet project a specific amount.

   Whether agency plans to implement the recommendation in the near future:
   The Department plans to implement our second recommendation during the fourth quarter
   of FY 2012.
